Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     MIAMI INDEPENDENT
     DIAGNOSTIC TESTING
 FACILITIES’ COMPLIANCE WITH
    MEDICARE STANDARDS




                    Daniel R. Levinson
                     Inspector General

                      August 2011
                     OEI-05-09-00560
   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVES
                          1. To determine whether Independent Diagnostic Testing Facilities
                             (IDTF) in the Miami area complied with selected Medicare
                             standards requiring IDTFs to be at the locations on file with the
                             Centers for Medicare & Medicaid Services (CMS) and to be open
                             during business hours.
                          2. To describe CMS actions against IDTFs that did not comply with
                             these standards.


                  BACKGROUND
                  IDTFs, a type of Medicare provider, offer diagnostic services and are
                  independent of a physician’s office or hospital. Medicare allowed almost
                  $1 billion for IDTF claims for 2.4 million beneficiaries in 2010. Of this,
                  $23.4 million was for claims by IDTFs in the Miami area.
                  IDTF services have historically been vulnerable to abuse. In site visits
                  in 1997, the Office of Inspector General (OIG) found that 20 percent of
                  IDTFs were not at the locations on file with CMS. A 2001 OIG review of
                  IDTF claims projected $71.5 million in improper Medicare payments.
                  To comply with Medicare standards, IDTFs must maintain a physical
                  facility at the location on file with CMS and be open during business
                  hours. IDTFs that do not comply with Medicare standards are subject
                  to a variety of administrative actions, including revocation of their
                  billing privileges.
                  To determine whether IDTFs in the Miami area were at the locations on
                  file with CMS and were open during business hours, we conducted
                  unannounced site visits to all IDTFs with fixed practice locations. We
                  also determined the amount that Medicare allowed for noncompliant
                  IDTFs and reviewed documentation about CMS actions against
                  noncompliant IDTFs.


                  FINDINGS
                  Twenty-seven of the ninety-two Miami-area IDTFs failed to comply
                  with selected Medicare standards. Twenty-three IDTFs were not at
                  the locations on file with CMS. Four IDTFs were not open during
                  business hours. Of the 27 noncompliant IDTFs, 14 submitted claims
                  representing services performed on the same dates that site reviewers
                  visited their locations.

OEI-05-09-00560   M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   i
E   X   E C     U T   I     V       E            S      U M            M       A       R Y


                          CMS took action against most of the noncompliant IDTFs as a result
                          of a special enrollment project and routine oversight. CMS took
                          action against 23 of the 27 noncompliant IDTFs in the months after we
                          completed our site visits. A special enrollment project resulted in
                          13 actions against noncompliant IDTFs, and routine oversight resulted
                          in 10 actions against noncompliant IDTFs.
                          Three IDTFs against which CMS took action received Medicare
                          payments while CMS was revoking their billing privileges. Medicare
                          continued to pay 3 of the 12 noncompliant IDTFs while the revocations
                          of their billing privileges were being finalized. CMS took an average of
                          17 weeks to remove these three IDTFs from Medicare. Between the
                          time when CMS determined that they were noncompliant and the time
                          when the revocations were finalized, Medicare allowed $146,000 for
                          claims submitted by these IDTFs.


                          RECOMMENDATIONS
                          Periodically conduct unannounced site visits to IDTFs. Periodically
                          conducting nationwide unannounced site visits to IDTFs may enable
                          CMS to identify and remove nonoperational IDTFs from the program
                          and potentially reduce erroneous Medicare payments. CMS could focus
                          unannounced site visits on high-risk areas or base them on fraud-risk
                          assessments.
                          Immediately stop payments to noncompliant IDTFs whose billing
                          privileges are being revoked. CMS should immediately stop payments
                          to noncompliant IDTFs as soon as there is enough evidence to begin the
                          revocation process. Currently, CMS may continue to pay providers
                          between the time when they are determined to be noncompliant and the
                          time when their revocations are finalized. These payments should be
                          retroactively recouped; however, previous OIG work demonstrates that
                          many Medicare overpayments are not recovered. If CMS immediately
                          stops payments while concurrently pursuing appropriate action against
                          noncompliant IDTFs, it will help avoid loss of Medicare funds.




    OEI-05-09-00560       M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   ii
E   X   E C     U T   I     V       E            S      U M            M       A       R Y




                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations. CMS stated that it
                          anticipates increasing the frequency of unannounced site visits to
                          IDTFs. CMS also stated that it is exploring options to use payment
                          suspensions in conjunction with revocation actions for providers and
                          suppliers that are found to be nonoperational. We did not make any
                          changes to the report based on CMS’s comments.




    OEI-05-09-00560       M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   iii
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         FINDINGS .................................................. 9
                   Twenty-seven of the ninety-two Miami-area IDTFs failed to
                   comply with selected Medicare standards . . . . . . . . . . . . . . . . . . . . 9

                   CMS took action against most of the noncompliant IDTFs
                   as a result of a special enrollment project and routine oversight . 11

                   Three IDTFs against which CMS took action received Medicare
                   payments while CMS was revoking their billing privileges . . . . . 13


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                   Agency Comments and Office of Inspector General Response . . . 15


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                   A: Independent Diagnostic Testing Facility Standards . . . . . . . . 16

                   B: Detailed Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
   I N T R O D U C T I O N


                  OBJECTIVES
                          1. To determine whether Independent Diagnostic Testing Facilities
                             (IDTF) in the Miami area complied with selected Medicare
                             standards requiring IDTFs to be at the locations on file with the
                             Centers for Medicare & Medicaid Services (CMS) and to be open
                             during business hours.
                          2. To describe CMS actions against IDTFs that did not comply with
                             these standards.


                  BACKGROUND
                  Medicare covers inpatient and outpatient clinical and diagnostic
                  services. These services can be provided in a number of settings,
                  including physicians’ offices, hospitals, and IDTFs. IDTFs, a type of
                  Medicare provider, offer diagnostic services and are independent of a
                  physician’s office or hospital.1 Medicare allowed almost $1 billion for
                  IDTF claims for 2.4 million beneficiaries in 2010. Medicare allowed
                  $23.4 million for claims by Miami-area IDTFs in 2010.
                  Services that may be provided by an IDTF include, but are not limited
                  to, magnetic resonance imaging, ultrasound, x-rays, and sleep studies.
                  Although some IDTF services can be performed remotely, such as
                  pacemaker monitoring, most IDTF services require a patient to be
                  present at a facility.
                  Historical Vulnerabilities
                  IDTF services have historically been vulnerable to fraud, waste, and
                  abuse. IDTFs were originally known as Independent Physiological
                  Laboratories (IPL). In 1997, after becoming concerned that IPL services
                  were vulnerable to abuse—in particular, citing a lack of certification
                  requirements and confusion about the type of services that IPLs should
                  provide—CMS issued new standards to address these vulnerabilities.2, 3
                  The new standards modified staffing, certification, and documentation
                  requirements for IPLs. IPLs were also renamed IDTFs to help clarify
                  their function.4



                      1 42 CFR § 410.33(a)(1).
                      2 62 Fed. Reg. 59048, 59071–72 (Oct. 31, 1997).
                      3 62 Fed. Reg. 59048, 59100–01 (Oct. 31, 1997) (adding 42 CFR § 410.33).
                      4 62 Fed. Reg. 59048, 59071–72 (Oct. 31, 1997).




OEI-05-09-00560   M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   1
I   N T    R O        D   U      C T            I     O      N




                              Also in 1997, the Office of Inspector General (OIG) conducted site visits
                              to IPLs. In an August 1998 report based on these visits, OIG reported
                              that 20 percent of IPLs were not at the locations on file with CMS. 5 In
                              the report, OIG also projected $11.6 million in improper payments for
                              IPL services and expressed concerns that the new standards that CMS
                              had issued would not be sufficient to reduce the vulnerabilities that OIG
                              had identified. 6
                              Despite the new standards, problems with IDTF services persisted. In a
                              2001 review of IDTF services, OIG identified claims that were not
                              reasonable, necessary, ordered by a physician, or sufficiently
                              documented and projected $71.5 million in improper payments. 7 In
                              2007, CMS reported that it had denied $163 million in IDTF charges
                              and terminated Medicare billing privileges for 83 IDTFs in
                              Los Angeles. 8
                              In May 2009, the Health Care Fraud Prevention and Enforcement
                              Action Team (HEAT) initiative was launched to increase efforts to
                              reduce Medicare fraud. A collaboration between officials from the
                              Department of Health and Human Services and the Department of
                              Justice, the HEAT initiative builds upon existing programs that combat
                              fraud and identifies new methods to prevent fraud.
                              Medicare Standards
                              CMS designed the IDTF standards—most recently updated in 2008—to
                              ensure that IDTFs and their staffs operate in accordance with
                              appropriate business practices. Among other things, these standards
                              require IDTFs to:
                                  ●        maintain a physical facility,
                                  ●        be accessible during regular business hours, and




                                5 OIG, Independent Physiological Laboratories: Vulnerabilities Confronting Medicare,
                              OEI-05-97-00240, August 1998.
                                6 Ibid.
                                7 OIG, Review of Claims Billed by Independent Diagnostic Testing Facilities for Services

                              Provided to Medicare Beneficiaries During Calendar Year 2001, A-03-03-00002, June 2006.
                                8 CMS testimony before the House Budget Committee, July 17, 2007. Accessed at

                              http://www.cms.hhs.gov on Oct. 5, 2009.



    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   2
I   N T    R O        D   U      C T            I     O      N




                                  ●        report any change in location to CMS within 30 days of the
                                           change. 9
                              See Appendix A for the 17 Medicare standards for IDTFs.
                              IDTF Enrollments
                              An IDTF that wishes to enroll in Medicare must submit an application.
                              The application collects various types of information, including the
                              address at which the IDTF will provide services and the services that it
                              will provide. 10
                              An applicant must indicate whether it will provide services at a fixed
                              location or whether it will be mobile or portable. A mobile or portable
                              IDTF does not provide services at one fixed location. An applicant must
                              submit a separate application for each IDTF practice location and for
                              each mobile or portable unit. 11
                              Before approving an IDTF’s enrollment, CMS reviews the application
                              and conducts an initial site visit. These processes may help to ensure
                              that information on the application is correct and that the applicant
                              complies with all 17 Medicare standards.
                              Postenrollment Site Visits
                              According to the Medicare Program Integrity Manual, if an existing
                              IDTF requests an expansion of services and if the new services are
                              sufficiently different from those already provided, CMS must conduct a
                              postenrollment site visit.12 For example, if an IDTF that provides sleep
                              studies submits a request to start providing ultrasound tests, CMS is
                              required to conduct a postenrollment site visit.
                              In addition, CMS may conduct postenrollment site visits at its
                              discretion.13 CMS cites unannounced postenrollment site visits as a
                              successful way to determine whether IDTFs are operational and are at
                              the locations on file with CMS.14 According to the Medicare Program


                                  9 42 CFR §§ 410.33(g)(2), (g)(3), and (g)(14)(i).
                                  10 Form CMS-855B. Accessed at http://www.cms.hhs.gov on October 13, 2009.
                                  11 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 10, § 4.19.1(C).

                              Accessed at http://www.cms.hhs.gov on February 3, 2011.
                                12 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 10, § 4.19.6(C).
                              Accessed at http://www.cms.hhs.gov on February 3, 2011.
                                13 42 CFR § 410.33(g)(14).
                                14 Preamble to final rule implementing sections of the Patient Protection and Affordable
                              Care Act of 2010. 76 Fed. Reg. 5862, 5869 (Feb. 2, 2011).



    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   3
I   N T    R O        D   U      C T            I     O      N


                              Integrity Manual, when CMS conducts a site visit to verify the
                              operational status of an IDTF, CMS should attempt to make its
                              determination using only an external review of the IDTF. CMS requires
                              that reviewers document their visits using written observations of the
                              facilities and photographs as appropriate. 15
                              CMS Administrative Actions
                              CMS may take the following administrative actions against
                              noncompliant or inactive providers, including IDTFs:
                                  ●        Investigation. CMS investigations may include site visits and
                                           interviews with IDTF staff and Medicare beneficiaries, as well
                                           as analysis of claims data.
                                  ●        Prepayment review. CMS reviews documentation from
                                           providers before deciding whether to pay claims.
                                  ●        Payment suspensions. CMS may immediately suspend some or
                                           all payments to an IDTF if there is a credible allegation of fraud
                                           against that IDTF. 16
                                  ●        Revocation. CMS may revoke Medicare billing privileges for an
                                           IDTF that does not comply with Medicare standards. 17
                                           Medicare should not pay for services provided after the date of a
                                           provider’s revocation. If CMS determines that a provider is no
                                           longer operational, the date of revocation is the date of this
                                           determination. 18
                                  ●        Deactivation. CMS may deactivate a provider’s billing
                                           privileges when an IDTF has not submitted claims for
                                           12 consecutive months. 19 This reduces the risk that the billing
                                           privileges associated with that provider’s identification number
                                           will be used for fraudulent purposes.




                                  15 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 20.1. Accessed
                              at http://www.cms.hhs.gov on February 22, 2011.
                                 16 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 8, § 8.3.1.1. Accessed
                              at http://www.cms.hhs.gov on August 16, 2011.
                                 17 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2(A).

                              Accessed at http://www.cms.hhs.gov on January 31, 2011. See also 42 CFR § 424.535(a)(1).
                                 18 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2(B).

                              Accessed at http://www.cms.hhs.gov on January 31, 2011. See also 42 CFR § 424.535(g).
                                 19 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.1.
                              Accessed at http://www.cms.hhs.gov on January 31, 2011. See also 42 CFR § 424.540(a).



    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   4
I   N T    R O        D   U      C T            I     O      N


                              South Florida High Risk Enrollment Project
                              Concurrently with our review, CMS conducted a special project—the
                              South Florida High Risk Enrollment Project—that targeted fraud
                              among specific provider types that are vulnerable to abuse. As part of
                              the project, CMS conducted site visits to all IDTFs in South Florida to
                              verify their existence.
                              CMS used the results of these site visits, along with other information,
                              to create a fraud-risk score for each IDTF. IDTFs with high fraud-risk
                              scores could be subject to a variety of administrative actions. In some
                              cases, CMS used evidence from the site visits to take action against
                              noncompliant IDTFs.
                              Related Work
                              OIG is conducting a concurrent analysis of national IDTF claims data.
                              This analysis identifies areas with high utilization of services provided
                              by IDTFs, compares the patterns of IDTFs in these areas with the
                              patterns of IDTFs nationally, and identifies IDTF claims with unusual
                              characteristics.
                              OIG also completed a companion report assessing IDTFs in the
                              Los Angeles area, Los Angeles Independent Diagnostic Testing
                              Facilities’ Compliance With Medicare Standards (OEI-05-09-00561).


                              METHODOLOGY
                              We performed unannounced site visits in May 2010 to all IDTFs with
                              fixed practice locations in the Miami–Miami Beach–Kendall, FL Core
                              Based Statistical Area (Miami area). We determined whether these
                              IDTFs complied with selected Medicare standards requiring IDTFs to
                              be at the locations on file with CMS and to be open during business
                              hours. We also reviewed documentation about CMS actions against
                              noncompliant IDTFs. See Appendix B for a detailed description of our
                              methodology.
                              Scope
                              We focused our review on IDTFs with fixed practice locations because it
                              was not feasible to locate mobile or portable IDTFs for unannounced site
                              visits. Mobile or portable IDTFs do not provide services at one fixed
                              location.
                              We focused on IDTFs in the Miami area because this area was
                              highlighted by concurrent OIG work as having—in comparison to other



    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   5
I   N T    R O        D   U      C T            I     O      N


                              areas in the country—both a high concentration of IDTFs and a high
                              proportion of IDTFs with unusual billing patterns.
                              We focused on IDTF standards 3 and 14, which require an IDTF to
                              maintain a physical facility and to be accessible during regular posted
                              business hours to CMS and beneficiaries. 20 We focused on these
                              standards to limit our interaction with IDTF staff and reduce the risk of
                              alerting staff at potentially fraudulent IDTFs to our presence.
                              Data Sources and Data Collection
                              Identifying IDTF locations. To identify IDTF locations for our Miami-area
                              site visits, we first used the 2009 Part B National Claims History (NCH)
                              file to identify IDTFs that submitted claims in 2009 for practice
                              locations in the Miami area. We then located addresses for all
                              107 IDTFs with fixed practice locations through the Provider
                              Enrollment, Chain, and Ownership System and a data request to CMS.
                              Site visits to IDTFs. We conducted unannounced site visits in
                              May 2010 to determine whether these IDTFs maintained a physical
                              facility at the location on file with CMS and were open during business
                              hours. We recorded all observations using a standard form.
                              Updates after site visits. To account for any changes in our information
                              between the time when we identified our study population and the dates
                              of our site visits, we requested address updates and changes in
                              enrollment status from CMS for all IDTFs that we found to be
                              noncompliant.
                              CMS actions against noncompliant IDTFs. To describe CMS actions
                              against noncompliant IDTFs following our site visits, we requested the
                              results of the special enrollment project through December 2010. Along
                              with these results, we received data about routine actions taken by
                              CMS through December 2010 for these noncompliant IDTFs.
                              Payments to noncompliant IDTFs. We used the 2010 Part B NCH file to
                              determine how much Medicare allowed for services reportedly provided
                              by noncompliant IDTFs.
                              Analysis
                              Before analyzing our site visit results, we removed 15 IDTFs from our
                              analysis. Eleven of these were no longer enrolled in Medicare at the



                                  20 42 CFR §§ 410.33(g)(3) and (g)(14).




    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   6
I   N T    R O        D   U      C T            I     O      N


                              time of our site visits. We categorized four IDTFs as “unable to
                              determine.” Our analysis was performed on the remaining 92 IDTFs.
                              Determining compliance. We determined compliance with IDTF
                              standards 3 and 14 in the following manner:
                                  ●        We determined that an IDTF was at the location on file with
                                           CMS if it maintained a physical facility with its name clearly
                                           marked somewhere other than a building directory (e.g., a sign
                                           on or near the primary entrance to the IDTF).
                                  ●        We determined that an IDTF was open if it was accessible to
                                           CMS and beneficiaries during regular business hours (i.e., the
                                           door was unlocked) during either of two visits on separate days.
                              IDTFs that did not meet at least one standard were considered
                              noncompliant for the purposes of this report.
                              We aggregated the results of the site visits to determine the numbers of
                              IDTFs that (1) maintained physical facilities at the locations on file with
                              CMS and (2) were open during business hours. We also categorized site
                              reviewers’ observations about what was found (e.g., a sign with a
                              different business name) at the locations on file with CMS.
                              Payments to noncompliant IDTFs. We calculated the total amount that
                              Medicare allowed in 2010 for IDTFs that were not at the locations on
                              file with CMS and for IDTFs that were not open. For each IDTF, we
                              also calculated the amount Medicare allowed in 2010 following our site
                              visit (i.e., from the date of our last site visit through December 2010).
                              In addition, we determined the number of noncompliant IDTFs that
                              submitted claims representing services provided on the same dates that
                              site reviewers visited their locations and the amount that Medicare
                              allowed for such services.
                              Review of CMS actions against noncompliant IDTFs. We reviewed CMS
                              actions against the noncompliant IDTFs identified by our site visits.
                              We determined for how many IDTFs CMS took each type of action
                              (e.g., prepayment review) and whether the actions resulted from the
                              special enrollment project or from routine oversight. We aggregated
                              these results to determine the number of noncompliant IDTFs that CMS
                              took action against after our site visits, as well as the number of
                              noncompliant IDTFs that had been subject to each type of action.
                              Further, we calculated the amount of time that CMS took to implement
                              each revocation and determined whether the IDTF continued to receive


    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   7
I   N T    R O        D   U      C T            I     O      N


                              Medicare payments during the process. Revocation was the only CMS
                              action for which we completed this analysis because it is the only one for
                              which we had relevant data. To calculate how long CMS took to
                              implement the revocation, we compared the date that CMS determined
                              the IDTF was not compliant and the date that CMS finalized the
                              revocation. We then calculated the amount that Medicare allowed for
                              claims representing services provided by the IDTFs between these
                              dates.
                              Limitations
                              Because we reviewed compliance with only 2 of the 17 Medicare IDTF
                              standards, we may be understating the number of noncompliant IDTFs
                              in the Miami area. IDTFs must meet all 17 standards to be eligible to
                              bill Medicare for services.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-05-09-00560           M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   8
         F I N D I N G S

Twenty-seven of the ninety-two Miami-area IDTFs                  Twenty-seven of the IDTFs in the
         failed to comply with selected Medicare                 Miami area were not at the
                                       standards                 locations on file with CMS or were
                                                                 not open during business hours.
                            Medicare allowed $2.6 million for services provided by these IDTFs in
                            2010, $1.5 million of which was allowed after our site visits. An
                            additional two IDTFs were open only during the second visits made to
                            their locations. We considered these IDTFs open for the purposes of this
                            review.
                            Twenty-three IDTFs were not at the locations on file with CMS
                            After taking into account the IDTFs that submitted address updates to
                            CMS, we found that 23 of the IDTFs that we visited did not maintain a
                            facility at the location on file with CMS. CMS requires all IDTFs to
                            “[m]aintain a physical facility.” 21 Medicare allowed $2 million for these
                            23 IDTFs in 2010.
                            As Table 1 shows, when site reviewers visited the locations on file with
                            CMS, they found different businesses, unmarked office suites, and
                            private residences with no indication that IDTFs were located there. In
                            four cases, the street addresses on file with CMS did not exist or the
                            suite numbers on file with CMS did not exist at the given street
                            addresses. See Photo 1 for an example of an empty store front that site
                            reviewers found at the location CMS had on file for one IDTF.


                                  Table 1                          What OIG Found at Location on File
                            Description of
                         the locations on                         Description                                                                                              Number
                        file with CMS for
                                                                  Sign with a different business name                                                                             9
                        23 noncompliant
                                    IDTFs
                                                                  No sign indicating a business name                                                                              6

                                                                  Nonexistent address/suite                                                                                       4

                                                                  Private residence with no sign indicating an IDTF                                                               4

                                                                                                                                                      Total                       23

                                                               Source: OIG unannounced site visits to IDTFs, May 2010.




                                21 42 CFR § 410.33(g)(3).




      OEI-05-09-00560       M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S        9
F    I   N    D I    N G   S




               Photo 1
        No name was
    posted to indicate
     that an IDTF was
    operational at this
              location.




                                Source: OIG unannounced site visits to IDTFs, May 2010.


                               Four IDTFs were not open during business hours
                               Four IDTFs maintained a visible sign at the location on file with CMS
                               but were locked during business hours on 2 separate days. CMS
                               requires that each IDTF “[b]e accessible during regular business hours
                               to CMS and beneficiaries” and “[m]aintain a visible sign posting its
                               normal business hours.” 22 Site reviewers visited three of the four IDTFs
                               during their posted business hours. The remaining IDTF did not have
                               posted business hours and was visited during reasonable business hours
                               (9 a.m. to 5 p.m.). Medicare allowed almost $600,000 for these four
                               IDTFs in 2010.
                               Two additional IDTFs were locked during business hours on the first
                               day we visited and open on the second day. These IDTFs were
                               considered open for the purposes of this report because they were open
                               on the second visits. However, these IDTFs may have been open on our
                               second visits because they had become aware of our review.




                                   22 42 CFR § 410.33(g)(14).




         OEI-05-09-00560       M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   10
F   I    N   D I      N G     S


                            Fourteen noncompliant IDTFs submitted claims representing services
                            provided on the dates of their site visits
                            Fourteen of the noncompliant IDTFs submitted claims representing
                            138 services performed on the same dates that site reviewers visited
                            their locations. Medicare allowed $16,000 for 102 of these services.
                            Eleven of the fourteen IDTFs that submitted claims were not at the
                            locations on file with CMS, and three were not open during business
                            hours.
                            The services reportedly performed on the same dates as OIG’s site visits
                            generally would have required a beneficiary to be physically present.
                            The most common services billed on the dates of OIG’s site visit were
                            x-ray services and lung and vascular studies.
                            Submitting claims representing services provided at a noncompliant
                            location raises suspicion that these services may not have been
                            legitimate. These IDTFs may have changed locations without notifying
                            CMS. However, IDTFs that change locations without notifying CMS
                            within 30 days are no longer compliant with all Medicare standards.
                                                                    CMS took action against 23 of the
              CMS took action against most of the
                                                                    27 noncompliant IDTFs in the
        noncompliant IDTFs as a result of a special                 months after we completed our
          enrollment project and routine oversight                  site visits. These actions included
                                                                    investigation, prepayment review,
                            revocation of billing privileges, and deactivation of billing privileges.
                            More than half of these actions were because of the special enrollment
                            project. The rest were because of routine oversight that applies to all
                            Medicare providers. See Chart 1 for the actions CMS took against
                            noncompliant IDTFs identified by this report.
                            The special enrollment project resulted in actions against 13 noncompliant
                            IDTFs
                            As a result of the special enrollment project, CMS revoked the billing
                            privileges of 10 noncompliant IDTFs and monitored 3 others with
                            prepayment review. During the project, CMS conducted site visits to
                            Medicare providers in South Florida, including IDTFs. As a result of
                            this project, CMS took action against 13 noncompliant IDTFs that may
                            not have been identified through routine oversight.




    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   11
F   I   N   D I       N G     S




         Chart 1                                        14
     CMS actions
         against                                        12
    noncompliant
                                                        10


                                Number of CMS Actions
          IDTFs

                                                         8

                                                                                                                                                      Special Enrollment Project
                                                         6
                                                                                                                                                      Routine Oversight
                                                         4

                                                         2

                                                         0
                                                             Prepayment   Revocation           Deactivation Investigation
                                                               review

                            Source: CMS actions against IDTFs, May 2010.




                            Routine CMS oversight resulted in 10 actions against noncompliant IDTFs
                            CMS revoked the billing privileges of two IDTFs, deactivated the billing
                            privileges of six IDTFs, and investigated two others as a result of
                            routine oversight. CMS revoked the billing privileges of two providers
                            that submitted updated applications, but did not pass the application
                            review. CMS deactivated the billing privileges of six IDTFs that had
                            not submitted claims in the previous 12 months. In addition, CMS
                            investigated two IDTFs.
                            CMS took no actions against four noncompliant IDTFs
                            CMS determined that no action was needed for the remaining
                            four noncompliant IDTFs. After the OIG site visits, CMS visited these
                            four IDTFs as part of the special enrollment project and found them to
                            be operational.




    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   12
F   I   N   D I       N G     S



     Three IDTFs against which CMS took action                                                                    Medicare continued to pay 3 of the
    received Medicare payments while CMS was                                                                      12 IDTFs while the revocations of
                                                                                                                  their billing privileges were being
                 revoking their billing privileges
                                                                                                                  finalized. 23 CMS took an average
                                                                                                                  of 17 weeks to finalize these three
                            revocations.
                             Between the time when CMS determined that these three IDTFs were
                            noncompliant and the time when the revocations were finalized,
                            Medicare allowed $146,000 for claims representing services provided by
                            these IDTFs. Most of this amount was for a single IDTF whose billing
                            privileges were revoked 6 months after CMS determined that the IDTF
                            was noncompliant. Medicare allowed $145,000 for 883 services for this
                            IDTF in that time period.
                            The remaining two IDTFs were allowed just over $1,000 for claims
                            submitted while the revocations were being finalized. One of these
                            IDTFs received frequent payments for low-cost services. This IDTF was
                            paid for 199 services over 14 weeks while the revocation was processed.
                            The other IDTF was paid for two services over 12 weeks while the
                            revocation was processed.




                                23 CMS revoked the billing privileges of 12 IDTFs. Ten revocations were based on special

                            enrollment project site visits and two were based on routine oversight.



    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   13
   R E C O M M E N D A T I O N S

                  Twenty-seven of the ninety-two IDTFs in the Miami area did not comply
                  with selected Medicare standards. Twenty-three of these noncompliant
                  IDTFs were not found at the locations on file with CMS and four were
                  not open during business hours. Fourteen of these noncompliant IDTFs
                  submitted claims representing services provided on the same dates that
                  OIG site reviewers visited their locations.
                  CMS also identified noncompliant IDTFs in the Miami area and was
                  able to remove or monitor many of them. CMS actions included
                  revocation of billing privileges, deactivation of billing privileges,
                  prepayment review, and investigation. Three of the IDTFs continued to
                  receive payments while their billing privileges were being revoked.
                  These findings indicate that further actions are needed to protect the
                  integrity of the Medicare program and protect beneficiaries from
                  potentially fraudulent IDTFs. Therefore, we recommend that CMS:
                  Periodically conduct unannounced site visits to IDTFs
                  CMS advocates the use of unannounced postenrollment site visits to
                  determine whether providers are operational. Periodically conducting
                  nationwide unannounced site visits to IDTFs may enable CMS to
                  identify and remove nonoperational IDTFs from the program and
                  potentially reduce erroneous Medicare payments. CMS could focus
                  unannounced site visits on high-risk areas or base them on fraud-risk
                  assessments.
                  Immediately stop payments to noncompliant IDTFs whose billing privileges
                  are being revoked
                  CMS should stop payments for any services delivered on or after the
                  dates that CMS identified the IDTFs as noncompliant. Currently, CMS
                  may continue to pay providers between the time when they are
                  determined to be noncompliant and the time when the revocations of
                  their billing privileges are finalized. These payments should be
                  retroactively recouped; however, previous OIG work demonstrates that
                  many Medicare overpayments are not recovered.24 If CMS immediately
                  stops payments while concurrently pursuing appropriate actions against
                  noncompliant IDTFs, it will help avoid loss of Medicare funds.




                      24 OIG,
                            Collection Status of Medicare Overpayments Identified by Program Safeguard
                  Contractors, OEI-03-08-00030, May 2010.



OEI-05-09-00560   M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   14
R   E C     O    M    M   E     N D            A T           I     O       N      S



                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations. In response to our first
                          recommendation, CMS stated that it anticipates increasing the
                          frequency of unannounced site visits to IDTFs. CMS plans to compare
                          IDTF enrollment information with public records to identify potential
                          changes to enrollment information that would warrant further
                          investigation. In response to our second recommendation, CMS stated
                          that it is exploring options to use payment suspensions in conjunction
                          with revocation actions for providers and suppliers that are found to be
                          nonoperational. We did not make any changes to the report based on
                          CMS’s comments. For the full text of CMS’s comments, see Appendix C.




    OEI-05-09-00560       M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   15
   A P P E N D I X ~ A

                  Independent Diagnostic Testing Facility Standards 25
                  The [independent diagnostic testing facility (IDTF)] must certify in its
                  enrollment [application] that it meets the following standards and
                  related requirements:
                  (1) Operates its business in compliance with all applicable Federal and
                  State licensure and regulatory requirements for the health and safety of
                  patients.
                  (2) Provides complete and accurate information on its enrollment
                  application. Changes in ownership, changes of location, changes in
                  general supervision, and adverse legal actions must be reported to the
                  Medicare fee-for-service contractor on the Medicare enrollment
                  application within 30 calendar days of the change. All other changes to
                  the enrollment application must be reported within 90 days.
                  (3) Maintain a physical facility on an appropriate site. For the purposes
                  of this standard, a post office box, commercial mailbox, hotel, or motel is
                  not considered an appropriate site.
                              (i) The physical facility, including mobile units, must contain space
                              for equipment appropriate to the services designated on the
                              enrollment application, facilities for hand washing, adequate
                              patient privacy accommodations, and the storage of both business
                              records and current medical records within the office setting of the
                              IDTF, or IDTF home office, not within the actual mobile unit.
                              (ii) IDTF suppliers that provide services remotely and do not see
                              beneficiaries at their practice location are exempt from providing
                              hand washing and adequate patient privacy accommodations.
                  (4) Has all applicable diagnostic testing equipment available at the
                  physical site excluding portable diagnostic testing equipment. The
                  IDTF must—
                              (i) Maintain a catalog of portable diagnostic equipment, including
                              diagnostic testing equipment serial numbers at the physical site;
                              (ii) Make portable diagnostic testing equipment available for
                              inspection within 2 business days of a [Centers for Medicare &
                              Medicaid Services (CMS)] inspection request.




                      25 These standards are taken verbatim from 42 CFR § 410.33(g).




OEI-05-09-00560   M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   16
A   P P     E   N     D I      X      ~      A


                                        (iii) Maintain a current inventory of the diagnostic testing
                                        equipment, including serial and registration numbers and provide
                                        this information to the designated fee-for-service contractor upon
                                        request, and notify the contractor of any changes in equipment
                                        within 90 days.
                            (5) Maintain a primary business phone under the name of the
                            designated business. The IDTF must have its—
                                        (i) Primary business phone located at the designated site of the
                                        business or within the home office of the mobile IDTF units.
                                        (ii) Telephone or toll free telephone numbers available in a local
                                        directory and through directory assistance.
                            (6) Have a comprehensive liability insurance policy of at least $300,000
                            per location that covers both the place of business and all customers and
                            employees of the IDTF. The policy must be carried by a
                            nonrelative-owned company. Failure to maintain required insurance at
                            all times will result in revocation of the IDTF’s billing privileges
                            retroactive to the date the insurance lapsed. IDTF suppliers are
                            responsible for providing the contact information for the issuing
                            insurance agent and the underwriter. In addition, the IDTF must—
                                        (i) Ensure that the insurance policy […] remain in force at all
                                        times and provide coverage of at least $300,000 per incident; and
                                        (ii) Notify the CMS designated contractor in writing of any policy
                                        changes or cancellations.
                            (7) Agree not to directly solicit patients, which include[s], but is not
                            limited to, a prohibition on telephone, computer, or in-person contacts.
                            The IDTF must accept only those patients referred for diagnostic testing
                            by an attending physician, who is furnishing a consultation or treating a
                            beneficiary for a specific medical problem and who uses the results in
                            the management of the beneficiary’s specific medical problem.
                            Nonphysician practitioners may order tests as set forth in [42 CFR]
                            § 410.32(a)(3).
                            (8) Answer, document, and maintain documentation of a beneficiary’s
                            written clinical complaint at the physical site of the IDTF[.] (For mobile
                            IDTFs, this documentation would be stored at their home office.) This
                            includes, but is not limited to, the following:
                                        (i) The name, address, telephone number, and health insurance
                                        claim number of the beneficiary.

    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   17
A   P P     E   N     D I      X      ~      A


                                        (ii) The date the complaint was received; the name of the person
                                        receiving the complaint; and a summary of actions taken to resolve
                                        the complaint.


                                        (iii) If an investigation was not conducted, the name of the person
                                        making the decision and the reason for the decision.
                            (9) Openly post these standards for review by patients and the public.
                            (10) Disclose to the government any person having ownership, financial,
                            or control interest or any other legal interest in the supplier at the time
                            of enrollment or within 30 days of a change.
                            (11) Have its testing equipment calibrated and maintained per
                            equipment instructions and in compliance with applicable
                            manufacturers[’] suggested maintenance and calibration standards.
                            (12) Have technical staff on duty with the appropriate credentials to
                            perform tests. The IDTF must be able to produce the applicable Federal
                            or State licenses or certifications of the individuals performing these
                            services.
                            (13) Have proper medical record storage and be able to retrieve medical
                            records upon request from CMS or its fee-for-service contractor within
                            2 business days.
                            (14) Permit CMS, including its agents, or its designated fee-for-service
                            contractors, to conduct unannounced, on-site inspections to confirm the
                            IDTF’s compliance with these standards. The IDTF must—
                                        (i) Be accessible during regular business hours to CMS and
                                        beneficiaries; and
                                        (ii) Maintain a visible sign posting its normal business hours.
                            (15) With the exception of hospital-based and mobile IDTFs, a
                            fixed-base IDTF is prohibited from the following:
                                        (i) Sharing a practice location with another Medicare-enrolled
                                        individual or organization;
                                        (ii) Leasing or subleasing its operations or its practice location to
                                        another Medicare-enrolled individual or organization; or
                                        (iii) Sharing diagnostic testing equipment used in the initial
                                        diagnostic test with another Medicare-enrolled individual or
                                        organization.

    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   18
A   P P     E   N     D I      X      ~      A


                            (16) Enrolls for any diagnostic testing services that it furnishes to a
                            Medicare beneficiary, regardless of whether the service is furnished in a
                            mobile or fixed base location.
                            (17) Bills for all mobile diagnostic services that are furnished to a
                            Medicare beneficiary, unless the mobile diagnostic service is part of a
                            service provided under arrangement as described in section 1861(w)(1)
                            of the [Social Security] Act.




    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   19
A   P P
       A EP NP DE I N X D ~ I B X ~ B

                      Detailed Methodology
                      We conducted unannounced site visits to all Independent Diagnostic
                      Testing Facilities (IDTF) with fixed practice locations in the
                      Miami–Miami Beach–Kendall, FL Core Based Statistical Area (Miami
                      CBSA) to determine whether they complied with selected Medicare
                      standards. Specifically, we determined whether each IDTF was at the
                      location on file with the Centers for Medicare & Medicaid Services
                      (CMS) and was open during business hours. We then reviewed
                      documentation about CMS actions against the noncompliant IDTFs and
                      determined how much money Medicare allowed for services reportedly
                      provided by these IDTFs in 2010.
                      Scope
                      We focused our review on IDTFs that submitted claims for Medicare
                      payment in 2009 to concentrate our visits on IDTFs with recent activity
                      in the Medicare program. At the time we developed our study
                      population, data on claims from 2009 were the most recent available.
                      Data Sources and Data Collection
                      Identifying IDTF locations. We identified IDTFs that submitted claims in
                      2009 using the specialty code and provider identification numbers
                      (provider ID) fields in the 2009 Part B National Claims History (NCH)
                      file. We counted each provider ID that had only claims with the
                      specialty code 47 as an IDTF. We determined the CBSA to which each
                      IDTF belonged by matching the ZIP Code field from the NCH with the
                      ZIP Codes corresponding to each CBSA. We then selected the IDTFs in
                      the Miami CBSA.
                      We located an address for each IDTF in the Miami CBSA with a fixed
                      practice location using a combination of two sources. Our primary
                      source was the practice location field from the Provider Enrollment,
                      Chain, and Ownership System (PECOS). 26 Most, but not all, IDTFs
                      have enrollment information, such as their practice locations, stored in
                      PECOS. 27 When an IDTF did not have an address in PECOS, we




                          26 PECOS is the system of record for Medicare provider enrollment information. PECOS

                      is populated based on the initial provider enrollment application and updated any time a
                      provider submits an updated application to CMS.
                         27 An IDTF that enrolled before 2004 and has not submitted an updated application may
                      not have an enrollment record in PECOS.



    OEI-05-09-00560   M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   20
A   P P     E   N     D I      X      ~      B


                            requested this information from CMS. This process resulted in
                            addresses for 107 IDTFs in the Miami CBSA. 28
                            Site visits to IDTFs. We conducted unannounced site visits to these
                            107 IDTFs to determine whether they were at the locations on file with
                            CMS and were open during business hours. We recorded all
                            observations using a standard form. We conducted all site visits from
                            May 17 through May 28, 2010.
                            We designed our site visit protocol to ensure that we gave providers the
                            benefit of the doubt when determining whether they complied with
                            Medicare standards. For example:
                                ●         All visits to IDTFs were made during posted business hours if
                                          hours were posted or during reasonable business hours (9 a.m.
                                          to 5 p.m.) if none were posted.
                                ●         If an IDTF was locked, we made a second visit to that location
                                          on a different day. We considered IDTFs to be open if they were
                                          open on either the first visit or (if applicable) the second visit.
                                ●         When the building at an IDTF’s location on file with CMS was a
                                          multisuite office building, site reviewers searched for the IDTF
                                          by name as well as by suite number. We considered the IDTF to
                                          be at the location on file with CMS if site reviewers could find it
                                          in any suite or office space in the building.
                                ●         If an IDTF had a sign posted indicating that visitors should ring
                                          a buzzer or doorbell to enter the facility, site reviewers did so. If
                                          the door was opened (e.g., someone came to the door or the lock
                                          was released), we considered the IDTF to be open.
                                ●         If an IDTF had a sign posted indicating that services were
                                          available by appointment only, a site reviewer attempted to
                                          make an appointment for services with that IDTF (e.g., called
                                          the phone number listed on the sign). If the site reviewer was
                                          able to make an appointment, we considered the IDTF to be
                                          open.
                                ●         If we found a different business name at the IDTF location on
                                          file with CMS, we attempted to determine whether the IDTF we
                                          were looking for was operating under the name we found. First,


                                28 One IDTF with claims in 2009 was not identified either by PECOS supplier type or by
                            CMS as being an IDTF. We removed this IDTF from our analysis.


    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   21
A   P P     E   N     D I      X      ~      B


                                          we requested from CMS all names for IDTFs that we did not
                                          find and reviewed this information to ensure that we captured
                                          all possible aliases. Second, as a final check, we reviewed public
                                          Web sites, including the National Provider Identifier registry, to
                                          determine whether the IDTF we were looking for could be
                                          operating under the name we found. If we were able to connect
                                          the two names, we categorized the IDTF as being at the location
                                          on file with CMS.
                            CMS actions against noncompliant IDTFs. Data received from the South
                            Florida High Risk Enrollment Project (special enrollment project)
                            through December 2010 included:
                                ●         administrative actions taken against noncompliant IDTFs, the
                                          source of these actions (i.e., special enrollment project activity
                                          or routine oversight), the effective dates of these actions, and
                                          the dates these actions were finalized by CMS; and
                                ●         dates and results of all special enrollment project site
                                          verification visits and in-depth investigations.
                            Analysis
                            Updates after site visits. CMS indicated that nine IDTFs had their
                            billing privileges deactivated and two IDTFs had their billing privileges
                            revoked before the dates of our site visits. We removed these 11 IDTFs
                            from our analysis.
                            IDTFs categorized as “unable to determine.” We removed four IDTFs
                            from our analysis because we were unable to complete the full site visit
                            protocol or were unable to access the door of the reported practice
                            location.




    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   22
     A P PEN D                                    x          c


      Agency Comments




             /,.....VIC~_~ 	                                              .
         (          ~	 DEPARTMENT OF HEALTH                     & HUMAN SERVICES                           Centers lor Medicare & Medicaid SOIVIc&s

             ,,5'r                                                                                         Admiflist1'ator
                                                                                                           Washington, DC 20201




                               DATE:           JUL 2 6 2011

                               TO: 	         Daniel R. Levinson 

                                             Inspector General 

                                                                           /S/
                               FROM: 	       Donald M. Berwick, M.D. 

                                             Administrator 


                               SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Miami Independent Diagnostic
                                              Testing Facilities' Compliance with Medicare Standards" (OEI.05-09-00560)


                               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                               comment on the Office of Inspector General (OIG) draft report entitled, "Miami Independent
                               Diagnostic Testing Facilities' Compliance with Medicare Standards." The purpose of this report
                               is two-fold. First, it seeks to determine whether Independent Diagnostic Testing Facilities
                               (IDTFs) in the Miami area complied with selected Medicare standards requiring IDTFs to be at
                               the location on file with CMS and open during business hours. Secondly, it describes CMS
                               actions against IDTFs that did not comply with these selected Medicare standards.

                               IDTFs offer diagnostic services and are independent ofa physician'S office or hospital.
                               According to OlG's report, Medicare paid almost $1 billion for IDTF claims for 2.4 million
                               beneficiaries in 2010, Qfthis, $23.4 million was for claims by IDTFs in the Miami area.
                               Medicare standards indicate that IDTFs must maintain a physical facility at the location on file
                               with CMS and be open during business hours. IDTFs that do not comply with Medicare
                               standards are subject to a variety ofadministrative actions, inclUding revocation of their billing
                               privileges.

                               The Affordable Care Act strengthens the focus on the integrity of the Medicare, Medicaid, and
                               Children's Health Insurance Program (CHIP) programs and provides important new tools to
                               combat fraud and abuse, including enhanced provider and supplier screening requirements;
                               authority to suspend payments pending investigations of credible allegations of fraud; and, when
                               necessary, authority to impose moratoria on new providers and suppliers.

                               IDTF services have historically been vulnerable to abuse. As such, CMS is taking additional
                               steps to address potential vulnerabilities in the enrollment and claims payment process for this
                               supplier group using the authorities granted under the Affordable Care Act. Under the new




o E1·0 5-09-00 560                  MIAMI INDEPENDENT DIAGNOSTIC TESTING FACILITIES' COMPLIANCE WITH MEDICARE STANDARDS                               23
A   P P     E   N     D I      X            ~            C




    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   24
A   P P     E   N     D I      X            ~            C




    OEI-05-09-00560         M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   25
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.
                  Laura Kordish served as the team leader for this study, and Lisa Minich
                  and Mara Werner served as lead analysts.
                  We would also like to acknowledge the contributions of Office of
                  Evaluation and Inspections central and regional offices. Contributing
                  staff from these offices include Melissa Baker, Tim Chettiath,
                  Ben Dieterich, Kevin Farber, Robert Gibbons, Jennifer Gist,
                  Rose Goldberg, Melissa Hafner, Scott Horning, Maria Maddaloni,
                  Dan Mallinson, Kevin Manley, Conswelia McCourt, Beth McDowell,
                  Jeremy Moore, Christine Moundas, Brian Pattison, Margo Rodriguez,
                  Megan Ruhnke, Rachel Siman, Arianne Spaccarelli, Mark Stiglitz,
                  Holly Williams, and Chetra Yean.




OEI-05-09-00560   M I A M I I N D E P E N D E N T D I A G N O S T I C T E S T I N G FA C I L I T I E S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   26
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
